CERTIFICATE OF SERVICE
NO. 20-1425
C.H. Robinson Worldwide, Inc.
Petitioner,
v.
Allen Miller
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
INTERESTED FREIGHT MOTOR CARRIERS AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER, by
mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for delivery to the
following address.
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for C.H. Robinson Worldwide, Inc.

Rena Mara Leizerman
The Law Firm for Truck Safety
3450 W Central Ave
Suite 328
Toledo, OH 43606
(419) 243-1010
rena@truckaccidents.com
Counsel for Allen Miller

Lucas DeDeus

May 19, 2021
SCP Tracking: Early-Soppa-4324 Wade Hampton Blvd.-Cover Cream

